Final Audit Report No. AU01-002 (331080)
Home < Reports < Audit Reports    Legal Services Corporation Office of Inspector General
Review of Case Service Data
Grantee: Passaic County Legal Aid Society
Recipient No. 331080
Report No. AU01-002
Other formats: PDF24K | Word 57K | Grantee's Comments: PDF 1,127K
March 2001
TABLE OF CONTENTS
EXECUTIVE SUMMARY
BACKGROUND
OBJECTIVES, SCOPE and METHODOLOGY
RESULTS OF AUDIT
Duplicate Cases
Documentation of Legal Services
CONCLUSIONS
RECOMMENDATIONS
SUMMARY OF GRANTEE'S COMMENTS ON DRAFT REPORT
OIG RESPONSE TO GRANTEE COMMENTS
APPENDIX I - Listing of Findings and Associated Recommendations
APPENDIX II  Grantee's Comments on Draft Report
APPENDIX III - OIG Staff Responsible for the Audit and Report
EXECUTIVE SUMMARY
During 1999, the Passaic County Legal Aid Society (grantee) opened multiple
cases for the same client with the same or related legal problem. The Office of Inspector
General (OIG) estimates that 588 cases (about 11 percent) of the 5,227 opened cases
were duplicates that should not have been opened. Grantee staff routinely opened
cases for clients without determining if the client's legal problem was previously
handled. The problem occurred because the grantee did not have procedures for
identifying duplicates when individuals applying for assistance were accepted as clients
and their cases were entered into the case management system.
The duplicate cases were not detected because management did not adequately
review case statistical data for errors prior to its submission to the Legal Services
Corporation (LSC).  As a result the grantee reported duplicate cases and overstated its
workload.
We noted several Private Attorney Involvement (PAI) cases that were recorded
twice.  One case was opened and recorded in the case management system when the
client was accepted. A second case was recorded when the client was referred to an
attorney participating in the PAI program.
In addition, a significant number of case files did not contain documentation
evidencing that legal services were provided to the client.  Fifty-four of 456 case files
reviewed lacked such documentation. The case files included the LSC problem code
but contained no information indicating that the client was provided legal advice. The
problem occurred because the grantee's advocates failed to complete the sections of
the case intake forms covering services provided. Supervisory review of the advocates
and the case files was insufficient and did not detect the problem.
Recommendations to correct the above problems are on page 6.
BACKGROUND
Passaic County Legal Aid Society is a nonprofit entity organized to provide legal
services to indigent individuals who meet established eligibility guidelines.  Its priorities
include housing, family, public benefits and consumer issues.  The grantee is
headquartered in Paterson, New Jersey.  It is staffed with 14 attorneys, 7 paralegals,
and 11 other staff who assist with cases and provide computer, accounting, and
administrative support services.  The grantee received funding totaling $2,435,000 in
1999, of which $369,488 or about 15 percent came from LSC.  To satisfy its Private
Attorney Involvement requirement, Passaic County Legal Aid Society relies on referrals
to private attorneys.
The grantee prepares and submits an annual Grant Activity Report to LSC on
key aspects of its workload.  The report includes statistics for basic field services and
Private Attorney Involvement programs financed with LSC funds, including the number
of open and closed cases, types of cases, and the reasons for closing cases.  For
calendar year 1999, Passaic County Legal Aid Society reported to LSC that it closed
4,852 cases.  The grantee kept track of client cases with the Kemps Caseworks "Client
for Windows" Case Management System, an automated management information
system.
OBJECTIVES, SCOPE, AND METHODOLOGY
The primary objective of this review was to determine if, during 1999, the grantee
opened multiple cases for clients when only one case should have been opened.
The OIG performed this review from September 20 through October 19, 2000, at
LSC's office in Washington D. C. and the grantee's office in Patterson, New Jersey.
As part of this audit, we obtained an understanding of the intake process and the
procedures for recording data in the automated case management system, including the
collection and reporting of data to LSC.
The grantee provided the OIG a listing of all cases opened during 1998 and 1999
from its automated case management system.  The OIG selected a random statistical
sample of 400 cases from the 5,227 cases opened in 1999.  These 400 cases were
compared with the listing of all the cases opened in 1998 and 1999 to determine if
potential duplicate cases had been opened.  This comparison identified 286 cases that
appeared to be duplicative of 170 cases included in the random sample selected by the
OIG.  These 456 cases (170 plus 286) were reviewed at the grantee's office.
Each case file was reviewed with a member of the grantee's staff, usually the
deputy director or a supervising attorney, to determine if the grantee had opened
duplicate cases.  The grantee staff member was asked to provide supporting
documentation evidencing that multiple cases had been properly opened for a specific
client.  During the on-site visit, the OIG interviewed and collected information from the
grantee's deputy director, supervising attorneys, staff attorneys, paralegals, intake staff,
office manager (information system specialist), and support staff.  In addition, the OIG
staff reviewed the grantee's 1999 Grant Activity Report, grant proposal, and various
other documents.
We performed this audit in accordance with Government Auditing Standards
(1994 revision) established by the Comptroller General of the United States and under
authority of the Inspector General Act of 1978, as amended and Public Law 106-113,
incorporating by reference Public Law 104-134.
RESULTS OF AUDIT
Multiple cases were opened for some clients when only one case should have
been recorded.  In addition, the files for some cases did not contain documentation
evidencing that the client was provided legal services.
Duplicate Cases
Cases involving the same client with the same or a related problem were
erroneously opened and recorded more than once.  The grantee opened 5,227 cases in
1999. The OIG selected a random sample of 400 of these cases. Forty-five cases (11
percent) were duplicates.  Based on the sample results, we estimated that 588 of the
5,227 opened cases were duplicates.  The following are examples of duplicate cases.
Case 99-800-3826 was opened on April 6, 1999 for a client with a problem
involving AFDC/Other Welfare.  The client returned on June 3, 1999 with the
same problem.  The intake sheet from case 99-800-3826 was photocopied, the
case number was scratched out and a new case number 99-800-4700 assigned.
Case 99-800-4218 was opened on April 30, 1999 for a client facing eviction.  The
case was closed on September 7,1999.  A second case (99-800-6073) for the
client facing eviction from the same residence was opened on September 7,1999
and closed on November 8,1999.  A third case (99-800-6843) for the client facing
eviction from the same residence was opened on October 27,1999 and closed on
November 16,1999.
Case 99-800-2694 was opened on January 11, 1999 for a client seeking
temporary rental assistance.  A different advocate opened case 99-800-2695 for
this client on January 11, 1999.  This second case also related to temporary
rental assistance.  A third case (99-800-3317) pertaining to temporary rental
assistance for this client was opened on February 25, 1999.  An advocate not
involved in either of the first two cases opened the third case.
Case Intake Procedures
The grantee did not have adequate procedures for identifying duplicates when
clients were accepted and their cases were entered into the case management system.
Grantee staff routinely opened cases for clients without determining whether the client
had a preexisting case for the same problem.
During client intake, a manual form is completed with basic information including
the client's name, address, income, citizenship status and legal problem. This
information is subsequently entered into the automated case management system.
Clients are not screened during the intake process to determine if they have been
provided services for the same or a similar problem during the current year.  Such
screenings are relatively easy to do through the case management system and would
preclude, or at least reduce the number of, duplicate cases.
The grantee's case management system is capable of electronically identifying
all cases opened for a specific client.  The system can be electronically queried to
determine if an individual seeking assistance had been helped with the same legal
problem during the year.  If assistance had been previously provided during the year a
new case should not be opened.  Grantee staff does not use the case management
system to determine if a case had been previously recorded for a client.  Staff members
told us that they had not been adequately trained on how to use the case management
system and that manuals explaining its use were not available.
Management Review of Case Statistical Information
Grantee management did not adequately review case statistical data and
eliminate duplicate cases prior to submitting the data to the LSC as required by the CSR
Handbook.  As a result, duplicate cases were not detected and were reported to LSC.
One method for reviewing case information is to generate a file or report that identifies
clients for whom more than one case was opened during the reporting year.  The cases
can then be sorted to list clients that had two or more cases with the same or a related
problem code.  These cases can be reviewed and duplicates eliminated.  The CSR
Handbook suggests this approach be used to identify duplicate cases.  Grantee
management did not use the suggested approach to identify and eliminate duplicate
cases.
Cases Referred to Private Attorneys
Several of the duplicate cases occurred because PAI cases were recorded twice
in the case management system.  One case was opened and recorded when the
grantee accepted the client.  A second, duplicate, case was recorded when the client
was referred to an attorney participating in the PAI program.  The CSR Handbook
specifically prohibits such redundant case recording.
Documentation Of Legal Services
A significant number of case files did not document that the client was provided
legal services.  Fifty-four of 456 case files reviewed did not include sufficient information
to determine whether legal services had been provided to the client.  We discussed
these cases with attorneys or paralegals on the grantee's staff.  These individuals
agreed that, for most cases, the provision of legal services was not adequately
documented.  Improvements are needed in the supervisory review of the advocates and
the work they perform.  Grantee staff informed us that case files were reviewed as
required by procedures.  However, the case files we examined generally lacked
evidence of supervisory review.
CONCLUSIONS
The grantee needs to adopt procedures that minimize the opening of duplicate
cases.  These procedures should require grantee staff to determine whether a client's
problem was previously handled during the reporting period. Procedures should be
improved regarding management's review of case statistical data prior to its submission
to LSC.  The management review of data should examine multiple cases opened for the
same client.  In addition, supervisors should review case files to ensure that advocates
documented the legal services provided to clients.  This supervisory review should be
documented in the case file.
RECOMMENDATIONS
The OIG recommends that grantee management:
Implement procedures requiring grantee staff to determine whether a client's
problem was previously handled during the reporting period.
Implement procedures for reviewing case statistical data to detect duplicate
cases prior to submitting the data to LSC.  The grantee's automated case
management system should be utilized to identify multiple cases opened for the
same client.  These cases should be reviewed and any duplicates eliminated.
Implement procedures requiring that cases referred under the PAI program are
recorded only once in the grantee's case management system.
Implement procedures requiring supervisory review of case files to ensure that
the advocates document the legal services provided.
SUMMARY OF GRANTEE'S COMMENTS ON DRAFT REPORT
The grantee's comments stated that some duplicate files had been
unintentionally created.  The OIG reported finding 45 duplicate cases.  The grantee
asserted that five of these cases were not duplicates.  According to the grantee, in four
cases the client was the same but had different legal problems.  In the fifth case two
different clients were served.
The grantee agreed that, in some instances, case files did not document the
legal services provided to the client.  The OIG reported that 56 case files did not include
sufficient information to determine whether the client had been provided legal services.
The grantee's comments indicated that 4 of the 56 cases involved clients who were not
provided legal services.
The audit report included four recommendations.  The grantee agreed with
recommendations 1, 3 and 4.  The grantee's response did not address recommendation 2.
The grantee's response also included statements about another New Jersey
legal services program and its management that are unrelated to the draft report.
OIG RESPONSE TO GRANTEE COMMENTS
We assessed the grantee's comments and concluded that they did not provide
any basis for modifying the audit report.  The grantee generally agreed with the draft
report but disputed our findings for ten cases.  We reviewed the information provided
and our work paper documentation for these cases and concluded that our assessment
is correct.  We did not modify the report and reaffirm our findings and recommendations.
The grantee's response included comments, unrelated to the audit report, that
amount to unsubstantiated allegations of wrongdoing by a third party. The OIG does not
publish such statements and redacted them from the grantee's comments included in
Appendix II.
Please provide a corrective action plan for implementation of the four
recommendations.  The corrective action plan should include a description of the action
taken to implement each recommendation and the date corrective action will be
completed.
APPENDIX I
LISTING OF FINDINGS AND ASSOCIATED RECOMMENDATIONS
Findings:
Case Management System contains duplicate cases (page 4). Recommendations #1, 2, 3
Legal Services provided were not documented (page 5).	Recommendation #4
APPENDIX II
GRANTEES COMMENTS ON DRAFT REPORT
Download PDF file: 331080a.pdf 1,127K.
APPENDIX III
OIG STAFF RESPONSIBLE FOR THE AUDIT AND THE REPORT
Michael Griffith (Auditor-in-charge)
Anthony M. Ramirez
David Young
Abel Ortunio
URL: http://oig.lsc.gov/reports/01002/331080.htm